CERTIFICATE OF SERVICE
No. 19-930

IN THE

'upreme Court of the

6tate5

CIC SERVICES, LLC,
Petitioner,
v.
INTERNAL REVENUE SERVICE, ET AL.,
Respondent.

As required by Supreme Court Rule 33.1(h), I certify that the
Brief of Amicus Curiae National Taxpayers Union Foundation in
Support of Petitioner in the above-entitled case contains 3,541 words,
as the preparer of the document and as measured by the word
processing software and excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d). I, Joseph D. Henchman,
declare under penalty of perjury that the foregoing is true and correct.
Executed on July 22, 2020.

Jo EPH D. HENCHMAN*
NATIONAL TAXPAYERS UNION FOUNDATION
122 C Street N.W. #650
Washington, DC 20001
(703) 683-5700
jbh@ntu.org
Counsel for Amicus Curiae
*Counsel of Record

